Rates and Fees Table for UMB Bank n.a. Private Label Accounts
PLEASE NOTE that this information is provided for general information purposes only and is not specific to your Account.
See the Cardholder Agreement and Important Cost Information disclosure that was provided for your Account for more
detailed information. This information is accurate as of May 1, 2020.
Interest Rates and Charges
Annual Percentage Rate (APR) for
Purchases

18.00%

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will not
charge you interest on Purchases if you pay your entire balance by the due date each
month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Penalty Fees
•

Late Payment

Up to $38

•

Returned Payment

Up to $38

•

Over the Credit Limit

None

How We Will Calculate Your Balance: We use a method called the “average daily balance (including new purchases).”
Cardholder Agreement: For additional information about the costs and terms of the Account, see your Cardholder Agreement, which will be sent with the Card. The Cardholder Agreement and the
Account will be governed by Missouri and applicable federal law, but we will rely on the provisions of Nebraska law with respect to the fees and charges (other than interest) that apply to your
Account, as authorized by Missouri Revised Statutes Section 408.145. The Cardholder Agreement permits us to change the terms of this Account, including the rates, fees and other credit terms,
upon notice to cardholder and subject to the provisions of applicable law.
Notice to Young Applicants: If you are under 21 years of age, Federal law prohibits us from approving your application for a credit card unless you demonstrate that you have the independent
ability to make the required payments on your account, or unless you provide a guarantor or cosigner. The guarantor or cosigner must be acceptable to us and must sign our form of guaranty
agreement.
Important Information About Procedures For Opening A New Account: Our bank complies with Section 326 of the USA PATRIOT Act. This law mandates that we collect and verify certain
information about you while processing your Account application. Please talk with a Bank representative if you have questions.
State Disclosures: (1) MARRIED WISCONSIN RESIDENTS: You agree that (a) no provision of any marital property agreement, unilateral statement under the Wisconsin Marital Property Law or
court decree will adversely affect our interests unless, prior to the time credit is granted, we are given a copy of the agreement, statement, or decree or we have actual knowledge of the adverse
provision. (2) CALIFORNIA RESIDENTS: An applicant, if married, may apply for a separate account. Applicants: (1) may, after credit approval, use the credit card account up to its credit limit; (2)
may be liable for amounts extended under the plan to any joint applicant. As required by law, you are hereby notified that a negative credit report reflecting on your credit record may be submitted to
a credit reporting agency if you fail to fulfill the terms of your credit obligations. (3) OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to
all credit worthy customers, and that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance with this
law. (4) NEW YORK RESIDENTS: New York residents may contact the New York State Department of Financial Services by telephone or visit its website for free information on comparative credit
card rates, fees and grace periods. NY State Dept of Financial Services: 1-800-342-3736 or visiting https://www.dfs.ny.gov/consumers/banking_money/credit_card_terms_and_fees (5) NEW YORK
AND VERMONT RESIDENTS: We may obtain your credit reports, for any legitimate purpose associated with the account or the application or request for an account, including but not limited to
reviewing, modifying, renewing and collecting on your account. On your request, you will be informed if such a report was ordered. If so, you will be given the name and address of the consumer
reporting agency furnishing the report. (6) DELAWARE AND OREGON RESIDENTS: Service charges not in excess of those permitted by law will be charged on the outstanding balances from
month to month. You may pay more than the minimum payment due, up to your entire outstanding balance, at any time.
Important: Information about the costs of credit cards as shown in the Important Cost Information chart is accurate as of May 1, 2020, the date this document was printed. This
information may have changed after that date. To find out what may have changed, call us at 855.368.0410 or write to us at UMB Bank, n.a., P.O. Box 419734, Kansas City, Missouri
64141-6734.

